 Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL



 NATIONAL HERITAGE INSURANCE
    COMPANY CLAIMED SOME
     UNALLOWABLE BENEFIT
  RESTORATION PLAN COSTS FOR
FISCAL YEARS 2003 THROUGH 2009



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                              Regional Inspector General
                                                  for Audit Services

                                                    September 2014
                                                     A-07-14-00435
                      Office of Inspector General
                                         http://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations

The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                              Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8M of the Inspector General Act, 5 U.S.C. App., requires that OIG
post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 National Heritage Insurance Company, a Medicare contractor, claimed unallowable
 Benefit Restoration Plan costs of $219,000 for fiscal years 2003 through 2009.

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) reimburses a portion of its contractors’
Benefit Restoration Plan (BRP) costs. In claiming BRP costs, contractors must follow cost
reimbursement principles contained in the Federal Acquisition Regulation (FAR), Cost
Accounting Standards, and the Medicare contracts. Previous Office of Inspector General
reviews found that Medicare contractors did not always correctly identify BRP costs.

The objective of this review was to determine whether the BRP costs claimed by National
Heritage Insurance Company (NHIC) for Medicare reimbursement for fiscal years (FYs) 2003
through 2009 were allowable and correctly claimed.

BACKGROUND

NHIC, a subsidiary of Hewlett-Packard Enterprise Systems (HPES) (formerly known as
Electronic Data Systems Corporation (EDS)), administered Medicare Part B carrier operations
under cost reimbursement contracts with CMS until the contractual relationship ended on June 1,
2009. With the implementation of Medicare contracting reform, NHIC continued to perform
Medicare work after being awarded the Medicare administrative contractors’ contracts for
Medicare Durable Medical Equipment Jurisdiction A and Medicare Parts A and B Jurisdiction
14, effective July 1, 2006, and November 14, 2008, respectively. Although our report is
addressed to HPES, we will associate the term NHIC with our findings and recommendation.

HPES offers two nonqualified defined-benefit pension plans: the EDS BRP and the EDS 1998
Supplemental Executive Retirement Plan (SERP). The primary purpose of the BRP is to provide
benefits to a select group of management or highly compensated employees. More specifically,
the BRP is a nonqualified defined-benefit pension plan designed to restore benefits lost because
of the Internal Revenue Code limits applicable to the regular qualified pension plan.

This report will address NHIC’s BRP costs that it claimed for Federal reimbursement under its
Medicare Part B contracts. We are separately reviewing the EDS SERP pension costs that NHIC
claimed.

WHAT WE FOUND

NHIC claimed $542,606 in BRP costs for FYs 2003 through 2009; however, we determined that
allowable BRP costs for this time period were $323,499. The difference, $219,107, represented
unallowable BRP costs that NHIC claimed on its Final Administrative Cost Proposals (FACPs)
for FYs 2003 through 2009. NHIC claimed these unallowable BRP costs because it did not
calculate them in accordance with Federal regulations and the Medicare contracts’ requirements.

National Heritage Insurance Company Benefit Restoration Plan Costs (A-07-14-00435)                i
In addition, during our review of BRP benefit payments paid to participants during FYs 2003
through 2009, we noted that some payments appeared to be based on excessive compensation.
While none of these individuals was considered one of the five most highly compensated
employees in management positions at each home office and each segment of the Medicare
contractor, these participants’ compensation exceeded the compensation limits described in FAR
31.205-6(p). We reviewed 33 benefit payments that contained compensation in excess of the
compensation limits described in FAR 31.205-6(p) and determined that $52,761 in BRP
payments may have been unallowable for Medicare reimbursement. Therefore, we are setting
aside $52,761 in claimed BRP costs for adjudication by CMS.

WHAT WE RECOMMEND

We recommend that NHIC:

    •    revise its FACPs for FYs 2003 through 2009 to reduce its claimed BRP costs by
         $219,107 and

    •    work with CMS to determine the allowability of $52,761 in BRP costs that NHIC
         claimed for Medicare reimbursement for FYs 2003 through 2009.

AUDITEE COMMENTS AND OUR RESPONSE

Our draft report included a finding that NHIC based its claims for Medicare reimbursement on
an incorrect cost accounting method; this finding remains part of this final report. Our draft
report also included a finding that NHIC claimed $271,270 of unallowable BRP costs on its
FACPs for FYs 2003 through 2009 because it used unreasonable compensation when calculating
its BRP costs for Medicare reimbursement. In written comments on that draft report, HPES
addressed our findings but not our recommendation. HPES agreed with us that NHIC based its
claim for Medicare reimbursement on an incorrect cost accounting method. HPES disagreed
with our draft report’s second finding that NHIC used unreasonable compensation when
calculating its BRP costs for Medicare reimbursement. Specifically, HPES disagreed with our
interpretation of several provisions of the relevant Federal regulations insofar as reasonableness
of compensation is concerned; with the manner in which those regulations use the compensation
limits established by the Office of Federal Procurement Policy; and with our direct association of
BRP costs with compensation costs.

After reviewing HPES’s comments and consulting with our Office of Counsel to the Inspector
General, we revised our monetary finding (the $271,270 in costs we had questioned in our draft
report) and agreed to limit our evaluation of executive compensation to only the five most highly
compensated employees in management positions at each home office and each segment of the
Medicare contractor. Accordingly, we have recalculated BRP payments in accordance with FAR
31.205-6(p) and have adjusted the associated findings and recommendations in this final report.
These adjustments led us to determine that NHIC claimed $219,107 of unallowable BRP costs
on its FACPs for FYs 2003 through 2009 and that NHIC claimed $52,761 in BRP payments that
may have been unallowable for Medicare reimbursement.



National Heritage Insurance Company Benefit Restoration Plan Costs (A-07-14-00435)               ii
However, we disagree with HPES’s assertion that BRP costs are not directly associated with
compensation costs. We note, too, that several of the supporting arguments that HPES advanced
to support its comments were of little or no relevance to our audit. We therefore maintain that
our findings, to include the costs related to NHIC’s use of potentially excessive compensation
when calculating its BRP costs for Medicare reimbursement (that is, the costs that we are setting
aside for adjudication by CMS), remain valid and solidly supported by relevant regulations.




National Heritage Insurance Company Benefit Restoration Plan Costs (A-07-14-00435)             iii
                                                     TABLE OF CONTENTS

INTRODUCTION ................................................................................................................... 1

           Why We Did This Review ........................................................................................... 1

           Objective ...................................................................................................................... 1

           Background .................................................................................................................. 1
                 Defined-Benefit Plans ...................................................................................... 1
                 Accounting Methodologies .............................................................................. 2

           How We Conducted This Review................................................................................ 2

FINDINGS ............................................................................................................................... 2

           Claimed Benefit Restoration Plan Costs ...................................................................... 3

           Unallowable Benefit Restoration Plan Costs Claimed ............................................... 3
                 Costs Based on Incorrect Cost Accounting Method ....................................... 3
                 Costs Based on Unallowable Compensation ................................................. 3

           Payments That May Have Been Based on Excessive Compensation .......................... 4

RECOMMENDATIONS ......................................................................................................... 5

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE........... 5

           Association of Benefit Restoration Plan Costs With Compensation Costs ................. 6
                  Auditee Comments........................................................................................... 6
                  Office of Inspector General Response ............................................................. 6

           Applicability of Federal Acquisition Regulation 31-205-6(p)..................................... 7
                  Auditee Comments........................................................................................... 7
                  Office of Inspector General Response ............................................................. 7

APPENDIXES

    A: Audit Scope and Methodology .................................................................................... 8

    B: Federal Requirements Related to
       Benefit Restoration Plan Costs ................................................................................... 9




National Heritage Insurance Company Benefit Restoration Plan Costs (A-07-14-00435)                                                              iv
   C: National Heritage Insurance Company Statement
      of Allowable Benefit Restoration Plan Costs ........................................................... 11

   D: Auditee Comments .................................................................................................... 12




National Heritage Insurance Company Benefit Restoration Plan Costs (A-07-14-00435)                                               v
                                               INTRODUCTION

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) reimburses a portion of its contractors’
Benefit Restoration Plan (BRP) costs. In claiming BRP costs, contractors must follow cost
reimbursement principles contained in the Federal Acquisition Regulation (FAR), Cost
Accounting Standards (CAS), and the Medicare contracts. Previous Office of Inspector General
reviews found that Medicare contractors did not always correctly identify BRP costs.

OBJECTIVE

Our objective was to determine whether the BRP costs claimed by National Heritage Insurance
Company (NHIC) for Medicare reimbursement for fiscal years (FYs) 2003 through 2009 1 were
allowable and correctly claimed.

BACKGROUND

NHIC, a subsidiary of Hewlett-Packard Enterprise Systems (HPES) (formerly known as
Electronic Data Systems Corporation (EDS)), administered Medicare Part B carrier operations
under cost reimbursement contracts with CMS until the contractual relationship ended on June 1,
2009. With the implementation of Medicare contracting reform, 2 NHIC continued to perform
Medicare work after being awarded the MAC contracts for Medicare Durable Medical
Equipment (DME) Jurisdiction A and Medicare Parts A and B Jurisdiction 14, effective July 1,
2006, and November 14, 2008, respectively. 3, 4 Although our report is addressed to HPES, we
will associate the term NHIC with our findings and recommendation.

Defined-Benefit Plans

HPES offers two nonqualified defined-benefit pension plans: the EDS BRP and the EDS 1998
Supplemental Executive Retirement Plan (SERP). The primary purpose of the BRP is to provide
benefits to a select group of management or highly compensated employees. More specifically,


1
    Through the June 1, 2009, contract termination date mentioned below.
2
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P. L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MACs) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or
Medicare administrative contractor, whichever is applicable.
3
 Medicare DME Jurisdiction A comprises the States of Connecticut, Delaware, Maine, Maryland, Massachusetts,
New Hampshire, New Jersey, New York, Pennsylvania, Rhode Island, and Vermont, as well as the District of
Columbia.
4
  Medicare Parts A and B Jurisdiction 14 comprises the States of Maine, Massachusetts, New Hampshire, Rhode
Island, and Vermont.

National Heritage Insurance Company Benefit Restoration Plan Costs (A-07-14-00435)                                    1
the BRP is a nonqualified defined-benefit pension plan designed to restore benefits lost because
of the Internal Revenue Code limits applicable to the regular qualified pension plan.

Accounting Methodologies

The Medicare contracts require NHIC to calculate BRP costs in accordance with the FAR and
CAS 412 and 413. The FAR and CAS require that the costs for nonqualified defined-benefit
plans be measured under either the accrual method or the pay-as-you-go method. Under the
accrual method, allowable costs are based on the annual contributions that the employer deposits
into its trust fund. For nonqualified defined-benefit plans that are not funded through the use of a
funding agency, costs are to be accounted for under the pay-as-you-go method. This method is
based on the actual benefits paid to participants, which are comprised of lump-sum payments
plus annuity payments.

This report will address NHIC’s BRP costs that it claimed for Federal reimbursement under its
Medicare Part B contracts. We are separately reviewing the EDS SERP pension costs that NHIC
claimed.

HOW WE CONDUCTED THIS REVIEW

We reviewed $542,606 of BRP costs claimed by NHIC for Medicare reimbursement on its Final
Administrative Cost Proposals (FACPs) for FYs 2003 through 2009.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                               FINDINGS

NHIC claimed $542,606 in BRP costs for FYs 2003 through 2009; however, we determined that
allowable BRP costs for this time period were $323,499. The difference, $219,107, represented
unallowable BRP costs that NHIC claimed on its FACPs for FYs 2003 through 2009. NHIC
claimed these unallowable BRP costs because it did not calculate them in accordance with
Federal regulations and the Medicare contracts’ requirements.

In addition, during our review of BRP benefit payments paid to participants during FYs 2003
through 2009, we noted that some payments appeared to be based on excessive compensation.
While none of these individuals was considered one of the five most highly compensated
employees in management positions at each home office and each segment of the Medicare
contractor, these participants’ compensation exceeded the compensation limits described in FAR
31.205-6(p). We reviewed 33 benefit payments that contained compensation in excess of the
compensation limits described in FAR 31.205-6(p) and determined that $52,761 in BRP

National Heritage Insurance Company Benefit Restoration Plan Costs (A-07-14-00435)                 2
payments may have been unallowable for Medicare reimbursement. Therefore, we are setting
aside $52,761 in claimed BRP costs for adjudication by CMS.

CLAIMED BENEFIT RESTORATION PLAN COSTS

NHIC submitted BRP costs of $542,606 for Medicare reimbursement on its FACPs for FYs 2003
through 2009. We calculated the allowable BRP costs in accordance with the FAR and the CAS.
For details on the Federal requirements, see Appendix B.

UNALLOWABLE BENEFIT RESTORATION PLAN COSTS CLAIMED

We determined that the allowable BRP costs for FYs 2003 through 2009 were $323,499. Thus,
NHIC claimed $219,107 of unallowable BRP costs on its FACPs for this time period. This
overclaim occurred primarily because NHIC did not calculate its BRP costs in accordance with
Federal regulations and the Medicare contracts’ requirements. More specifically, NHIC based its
claim for Medicare reimbursement on an incorrect cost accounting method and used unallowable
compensation when calculating its BRP costs for Medicare reimbursement.

In accordance with the FAR and the CAS, we calculated the allowable BRP pension costs based
on periodic payments made to BRP recipients, plus a 15-year amortization of lump-sum BRP
payments, in accordance with CAS 412-50(b)(3). Accordingly, we determined that the
allowable pay-as-you-go BRP pension costs for FYs 2003 through 2009 totaled $323,499.

Costs Based on Incorrect Cost Accounting Method

The Medicare contracts require NHIC to calculate BRP costs in accordance with the FAR and
CAS 412 and 413. NHIC’s BRP did not satisfy the requirements for accrual accounting as
specified in CAS 412.50(c)(3). (See Appendix A.) Therefore, NHIC should have accounted for
its BRP costs using the pay-as-you-go cost method in accordance with CAS 412.50(b)(3).
However, NHIC incorrectly assigned its BRP costs to cost accounting periods using an accrual
cost accounting method.

Costs Based on Unallowable Compensation

NHIC identified $45,766,197 5 as the allocable BRP annuity costs for calendar years (CYs) 2002
through 2009. 6 In our review of the benefit payment calculations, we determined that NHIC
based its claimed BRP costs, with respect to the annuity payments, on unallowable
compensation. We obtained and recalculated 11 benefit payments, using the compensation limits
described in FAR 31.205-6(p) (Appendix B). Each of these 11 payments was made on behalf of

5
  We also reviewed the compensation used to determine the lump sum payments, which totaled $6,140,907. Our
review determined that the lump sum payments were based on reasonable compensation.
6
 NHIC gave us a list of the actual benefit payments made to BRP recipients and organized that list on a CY basis.
NHIC also provided its Medicare line of business information on a CY basis. Because Medicare reimbursement is
on an FY basis, we converted those CY benefit payments and the Medicare line of business information to an FY
basis by taking, for each FY, 1/4 of the prior CY’s cost plus 3/4 of the current CY’s cost.

National Heritage Insurance Company Benefit Restoration Plan Costs (A-07-14-00435)                                  3
1 of the 5 most highly compensated employees in management positions at each home office and
each segment of the Medicare contractor and should have been limited to the compensation
benchmarks determined by the Office of Federal Procurement Policy (OFPP). In our
calculations for these 11 payments, we limited each participant’s compensation for the year in
which he or she was considered 1 of the 5 most highly compensated employees in accordance
with FAR 31.205-6(p). We calculated the allocable BRP costs for the period of CYs 2002
through 2009 to be $38,477,951. Therefore, NHIC overstated the allocable BRP costs by
$7,288,247 because it did not limit executive compensation in accordance with FAR 31.205-6(p)
when requesting Medicare reimbursement.

Table 1 below compares allowable BRP costs with the costs claimed on NHIC’s FACPs.
Appendix C contains additional detail on the allowable costs.

                                  Table 1: Medicare BRP Costs
                                    Allowable Claimed by
                       Fiscal Year Per Audit       NHIC       Difference
                          2003         $30,794        $7,435      $23,359
                          2004          37,767       139,594   (101,827)
                          2005          42,510       109,222     (66,712)
                          2006          44,308        95,513     (51,205)
                          2007          52,820        85,486     (32,666)
                          2008          72,473        96,427     (23,954)
                          2009          42,827         8,929       33,898
                          Total      $323,499       $542,606 ($219,107)

Because NHIC did not calculate its BRP costs in accordance with Federal regulations and the
Medicare contracts’ requirements, it claimed $219,107 in unallowable BRP costs.

PAYMENTS THAT MAY HAVE BEEN BASED ON EXCESSIVE COMPENSATION

While reviewing calculations of payments made to participants during CYs 2002 through 2009,
we noted that NHIC based its claimed BRP costs, with respect to the annuity payments, on
compensation that appeared to be excessive.

We based our determination of excessive compensation on the benchmark for reasonable
compensation that is provided by FAR 31.205-6(p) (Appendix B). We obtained and recalculated
33 benefit payments using the compensation limits described in FAR 31.205-6(p). We
calculated the BRP costs associated with these 33 benefit payments to be $52,761 for the period
of FYs 2003 through 2009. We based our calculation on the difference between the allowable
costs calculated above and the amounts that would have been allowable if compensation were
limited to the OFPP benchmarks as specified in FAR 31.205-6(p).

Accordingly, we are setting aside $52,761 in claimed BRP costs for FYs 2003 through 2009 for
adjudication by CMS, as shown in Table 2 on the following page.



National Heritage Insurance Company Benefit Restoration Plan Costs (A-07-14-00435)             4
                                   Table 2: BRP Costs Set Aside
                               Fiscal Year       Amount Set Aside
                                  2003                  $6,296
                                  2004                   7,113
                                  2005                   7,902
                                  2006                   8,126
                                  2007                   9,110
                                  2008                   9,147
                                  2009                   5,067
                                  Total                $52,761

                                       RECOMMENDATIONS

We recommend that NHIC:

    •    revise its FACPs for FYs 2003 through 2009 to reduce its claimed BRP costs by
         $219,107 and

    •    work with CMS to determine the allowability of $52,761 in BRP costs that NHIC
         claimed for Medicare reimbursement for FYs 2003 through 2009.

    AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

Our draft report included a finding that NHIC based its claims for Medicare reimbursement on
an incorrect cost accounting method; this finding remains part of this final report. Our draft
report also included a finding that NHIC claimed $271,270 of unallowable BRP costs on its
FACPs for FYs 2003 through 2009 because it used unreasonable compensation when calculating
its BRP costs for Medicare reimbursement. In written comments on that draft report, HPES
addressed our findings but not our recommendation. HPES agreed with us that NHIC based its
claim for Medicare reimbursement on an incorrect cost accounting method. HPES disagreed
with our draft report’s second finding that NHIC used unreasonable compensation when
calculating its BRP costs for Medicare reimbursement.

A summary of HPES’s comments on our draft report’s second finding and our responses
follows. HPES’s comments, excluding seven pages which we removed because they contain
personally identifiable information and proprietary information, appear as Appendix D.

After reviewing HPES’s comments and consulting with our Office of Counsel to the Inspector
General, we revised our monetary finding (the $271,270 in costs we had questioned in our draft
report) and agreed to limit our evaluation of executive compensation to only the five most highly
compensated employees in management positions at each home office and each segment of the
Medicare contractor. Accordingly, we have recalculated BRP payments in accordance with FAR
31.205-6(p) and have adjusted the associated findings and recommendations in this final report.
These adjustments led us to determine that NHIC claimed $219,107 of unallowable BRP costs
on its FACPs for FYs 2003 through 2009 and that NHIC claimed $52,761 in BRP payments that
may have been unallowable for Medicare reimbursement.

National Heritage Insurance Company Benefit Restoration Plan Costs (A-07-14-00435)              5
However, we disagree with HPES’s assertion that BRP costs are not directly associated with
compensation costs. We note, too, that several of the supporting arguments that HPES advanced
to support its comments were of little or no relevance to our audit. We therefore maintain that
our findings, to include the costs related to NHIC’s use of potentially excessive compensation
when calculating its BRP costs for Medicare reimbursement (that is, the costs that we are setting
aside for adjudication by CMS), remain valid and solidly supported by relevant regulations.

ASSOCIATION OF BENEFIT RESTORATION PLAN COSTS WITH
COMPENSATION COSTS

Auditee Comments

HPES disagreed with our position that BRP costs are directly associated with compensation
costs. HPES stated that our citation of FAR 31.201-6(a) was incomplete and was thus applied
erroneously. The full provision, as HPES quoted in its comments, includes a definition of
“directly associated costs” as well as the following statement: “When an unallowable cost is
incurred, its directly associated costs are also unallowable.” HPES said that this quoted
statement “… makes it clear that the directly associated costs would only be unallowable if the
costs with which it is associated has [sic] been deemed to be unallowable.”

Furthermore, HPES stated that BRP costs were developed using a number of factors, including
compensation, employee’s current age, employee’s age on initial hiring date, employee’s age on
re-hire date, employee’s age on July 30, 1998, employee’s years of service, employee’s post-age-
35 years of service, current year interest rate, Social Security wage base for the current year,
Internal Revenue Service code 401(a)(17) annual compensation limit of the current year, and
employee’s EDS retirement plan payment. HPES concluded that because BRP payments were
calculated based on these and other factors and were not generated solely as a result of
compensation, “… any assertion that BRP costs are ‘directly associated’ costs is not supported
by the regulations.”

Office of Inspector General Response

We maintain that BRP costs are in fact directly associated with compensation costs and that this
report does not cite regulations misleadingly or apply them erroneously. FAR 31.001 defines
“directly associated cost” as “any cost which is generated solely as a result of the incurrence of
another cost, and which would not have been incurred had the other cost not been incurred.”
This definition, though not specifically quoted in Appendix B, is nearly word for word the same
as the FAR 31.201-6(a) definition that HPES quoted in its comments. In these terms, BRP costs
are directly associated with compensation. In fact, the first computation of the benefit payment
for the BRP is to determine the participant’s final average pay. The final average pay of the
participant is then used as the basis to determine the benefit that will be paid to the participant;
the other factors merely adjust the participant’s benefit amount in accordance with the plan
document. Therefore, we believe that the BRP benefit is directly associated with the
compensation level of the participant.




National Heritage Insurance Company Benefit Restoration Plan Costs (A-07-14-00435)                 6
HPES cited one other provision of FAR 31.201-6(a) in this portion of its comments: “When an
unallowable cost is incurred, its directly associated costs are also unallowable.” HPES’s
interpretation of this statement is inaccurate. That interpretation pivots on HPES’s insertion of
the word “only” in the interpretive comment quoted in “Auditee Comments” above. This
inserted word narrows the FAR’s causative relationship between “unallowable cost” and
“directly associated costs” in a manner that distorts the meaning and shifts the focus of that
provision of the FAR.

APPLICABILITY OF FEDERAL ACQUISITION REGULATION 31.205-6(p)

Auditee Comments

In responding to our draft report, HPES based many of its comments on its interpretation of FAR
31.205-6. In addition to making the arguments that we have summarized above, HPES made
further reference, in the last two pages of its written comments, to its disagreement with our
application of FAR 31.205-6(p). HPES stated that any assertion that BRP costs are unallowable
based on this provision of the FAR is not supported by the regulations in that (1) defined-benefit
pension plans are not included in the definition of limited compensation, (2) the statutory
limitation does not apply to all employees, and (3) the costs are not unallowable as directly
associated costs.

Office of Inspector General Response

We disagree with HPES’s assertions that (1) defined-benefit pension plans are not included in
the definition of limited compensation, (2) the statutory limitation does not apply to all
employees, and (3) the costs are not unallowable as directly associated costs because they are not
supported by the regulations. FAR 31.205-6(p) places limits on the total compensation that is
allowable for the named elements of compensation and does not exempt other elements of
compensation from allowability restrictions. In fact, FAR 31.205-6(a)(5) makes it clear that
“… costs that are unallowable under other paragraphs of this Subpart 31.2 are not allowable
under this subsection 31.205-6 solely on the basis that they constitute compensation for personal
services.” FAR 31.205-6(b)(2) does not exclude pension benefits and other forms of deferred
compensation from the individual compensation elements that are to be considered when
assessing the reasonability of the total compensation package. In addition, FAR 31.201-2(a)
states that the use of compensation deemed to be unreasonable is unallowable.




National Heritage Insurance Company Benefit Restoration Plan Costs (A-07-14-00435)                  7
                          APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed $542,606 of BRP costs that NHIC claimed for Medicare reimbursement on its
FACPs for FYs 2003 through 2009.

Achieving our objectives did not require us to review NHIC’s overall internal control structure.
We reviewed controls relating to the BRP costs claimed for Medicare reimbursement to ensure
that those costs were allowable in accordance with the FAR and the CAS.

We performed our audit work at our office in Jefferson City, Missouri, in October 2013.

METHODOLOGY

To accomplish our objective, we:

       •   reviewed the portions of the FAR, CAS, and Medicare contracts applicable to this audit;

       •   reviewed information provided by NHIC to identify the amount of nonqualified defined-
           benefit plan costs claimed for Medicare reimbursement for FYs 2003 through 2009; 7

       •   reviewed Total Company benefit payment information and Total Company salary
           information provided by NHIC for the BRP; and,

       •   using the information provided by NHIC, determined the amount of annuities paid to
           participants and calculated the allowable amortizable benefit for participants who
           received a lump-sum benefit payment in accordance with Federal regulations.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




7
    Through the June 1, 2009, contract termination date.

National Heritage Insurance Company Benefit Restoration Plan Costs (A-07-14-00435)                   8
                APPENDIX B: FEDERAL REQUIREMENTS RELATED TO
                      BENEFIT RESTORATION PLAN COSTS

FEDERAL REGULATIONS

Federal regulations (CAS 412.50(b)(3)) state that for defined-benefit plans accounted for under
the pay-as-you-go cost method, the amount of pension cost assignable to a cost accounting
period shall be measured as the sum of:

    •   the net amount for any periodic benefits paid for that period and

    •   the level annual installment required to amortize over 15 years any lump-sum benefit
        payments.

Federal regulations (CAS 412.50(c)(3)) state that the cost of a nonqualified defined-benefit
pension plan shall be assigned to cost accounting periods in the same manner as qualified plans
under the following conditions:

    •   the contractor, in disclosing or establishing cost accounting practices, elects to have a
        plan so accounted for;

    •   the plan is funded through the use of a funding agency; and

    •   the right to a pension benefit is nonforfeitable and is communicated to the participants.

Federal regulations (CAS 412.50(c)(4)) state that the cost of a nonqualified defined-benefit
pension plan must be assigned using the pay-as-you-go method if the plan does not meet all of
the above requirements.

FAR 31.201-2(a) further states, in part, that a cost must be reasonable to be allowable. In
addition, FAR 31.205-6(b)(2) specifies that comparable market data be used to evaluate the
reasonableness of compensation. Furthermore, FAR 31.205-6(p) states: “Costs incurred … for
compensation of a senior executive in excess of the benchmark compensation amount
determined applicable for the contractor fiscal year … are unallowable.” FAR 31.205-6(p)(2)(B)
defines senior executives as “the five most highly compensated employees in management
positions at each home office and each segment of the contractor, whether or not the home office
or segment reports directly to the contractor’s headquarters.”

Additionally, FAR 31.201-6(a) states: “When an unallowable cost is incurred, its directly
associated costs are also unallowable.” BRP pension benefits are directly associated with
compensation because the benefit is based on the salary history of the recipient.

MEDICARE CONTRACTS

The determination and allocation of pension costs are addressed by the Medicare contract, which
states: “The calculation of and accounting for pension costs charged to this agreement/contract

National Heritage Insurance Company Benefit Restoration Plan Costs (A-07-14-00435)                  9
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.” To be allowable for Medicare reimbursement, pension cost must be (1) measured,
assigned, and allocated in accordance with CAS 412 and 413 and (2) funded as specified by part
31 of the FAR.




National Heritage Insurance Company Benefit Restoration Plan Costs (A-07-14-00435)           10
             APPENDIX C: NATIONAL HERITAGE INSURANCE COMPANY STATEMENT
                    OF ALLOWABLE BENEFIT RESTORATION PLAN COSTS



                BRP
             Amortized                                                                                   Medicare
             Lump-Sum                                                        Medicare   Medicare CY         FY
               Benefit           BRP Annuity             Total Benefit        Salary     Allowable       Allowable
 Year         Payments          Benefit Payments          Payments            Ratio        Costs           Costs
                 1/                     2/                     3/               4/           5/              6/
 2002           $13,452                 $3,278,305        $3,291,757            0.85%        $27,980
 2003            18,347                  3,714,814         3,733,161            0.85%         31,732      $30,794
 2004            28,621                  3,759,784         3,788,405            1.05%         39,778       37,767
 2005            49,982                 4,165,610          4,215,592            1.03%         43,421       42,510
 2006            71,791                 4,433,567          4,505,358            0.99%         44,603       44,308
 2007            78,682                 4,794,927          4,873,609            1.14%         55,559       52,820
 2008           655,514                 6,783,651          7,439,165            1.05%         78,111       72,473
 2009           675,902                 7,547,293          8,223,195            0.68%         55,918       42,827

 Total        $1,592,291              $38,477,951         $40,070,242                       $377,102     $323,499



ENDNOTES

1/ NHIC provided a schedule of lump-sum benefit payments. In accordance with CAS 412.50(b)(3), we
   amortized the lump-sum benefit payments, including an interest equivalent, over a 15-year period. In
   computing the interest component for the amortized lump-sum benefit payments, we used the valuation interest
   rate identified in the qualified defined-benefit plan actuarial valuation reports.

2/ NHIC provided a schedule of BRP annuity payments for each CY. In accordance with FAR 31.205-6p, we
   limited participants’ salaries in those calculations to the executive compensation limits.

3/ Allocable total benefit payments are the sum of the (i) amortized BRP allocable lump-sum benefit payments
   and (ii) allocable BRP annuity benefit payments. Total benefit payments differ from the total benefit payments
   provided to us by NHIC because of the amortization of lump-sum benefit payments.

4/ We calculated the Medicare salary ratio based on information provided by NHIC.

5/ Medicare CY allowable costs are the total benefit payments multiplied by the Medicare salary ratio.

6/ We converted the Medicare CY allowable pension cost to an FY basis (October 1 through September 30). We
   calculated the FY pension costs as 1/4 of the prior CY’s cost plus 3/4 of the current CY’s cost. NHIC
   terminated its Medicare Part B carrier contract on June 1, 2009. Therefore, the 2009 FY pension costs are
   calculated as 1/4 of the prior CY's cost plus 5/12 of the current CY’s cost.

National Heritage Insurance Company Benefit Restoration Plan Costs (A-07-14-00435)                              11
                                  APPENDIX D: AUDITEE COMMENTS





               March 7, 2014

               Mr. Patrick J. Cogley

               Regional Inspector Genelral for Audit Services
               Department of Health and Human Services
               Office of Inspector General
               Office of Audit Services, Region VII
               601 East 1ih Street, Room 0429
               Kansas City, MO 64106

               Subject: Audit Report# A-07-14-00435 -National Heritage Insurance Company, Benefit
               Restoration Plan Costs, FY 2003-2009

               Dear Mr. Cogley:

               HP has reviewed HHS OIG Audit Report# A-07-14-00435 (National Heritage Insurance
               Company Claimed Somel Unallowable Benefit Restoration Plan Costs for Fiscal Years 2003
               Through 2009}, dated January 30, 2014 and provides the following in response to the audit
               findings:

                   1.   HHS OIG Audit finding : Costs Based on Incorrect Cost Accounting Method
                        The Medicare contracts require NHIC to calculate BRP costs in accordance with the FAR
                        and CAS 412 and 413. NHIC's BRP did not satisfy the requirements for accrual
                        accounting as specified in CAS 412.50(c)(3). (See Appendix A}. Therefore, NHIC should
                        have accounted for its BRP costs using the pay-as-you-go cost method in accordance
                        with CAS 412.50(b)(3}. However, NHIC incorrectly assigned its BRP cost to cost
                        accounting periods using an accrual cost accounting method.

                        HP Response: HP agrees with this audit finding and will work with CMS on FACP
                        restatements and revisions once th is finding has been quantified.


                   2.   HHS OIG Audit ·finding : Costs Based on Unreasonable Compensation
                        NHIC identified $45,766,197 as the allocable BRP annuity costs for calendar years (CYs}
                        2002 through 2009. In our review of benefit payment calculations, we determined that
                        NHIC based its claimed BRP costs, with respect to the annuity payments, on
                        unreasonable compensation. Compensation costs are used in the calculation of
                        allowable BRP costs. We obtained and recalculated 31 benefit payments, using the
                        compensation limits described in FAR 3 1.205-6(p) (Appendix B), as a benchmark. We
                        calculated the allocable BRP costs for annuities to be $32,096,879 for the period of CY's
                        2002 through 2009. Therefore, NHIC overstated the allocable BRP costs for annuities by
                        $13,669,318 because NHIC did not limit the associated compensation to a reasonable
                        level.




National Heritage Insurance Company Benefit Restoration Plan Costs (A-07-14-00435)                                  12
                      HP Response: HP respectfully disagrees with this audit finding.


                      A. HP disagrees with several assertions made by HHS OIG regarding "unreasonable"
                         compensation.


                              •   First, HP disagrees with the HHS OIG's position that all compensation in
                                  excess of the compensation limits described in FAR 31.205-6(p) is
                                  unreasonable since there is no regulation to support the HHS OIG's position.
                                  The HHS OIG's FAR citation is limited to the top five executives, yet HHS
                                  OIG has erroneously applied that citation to reasonableness of compensation
                                  addressed in FAR 31 .201-3.

                                  In addition, the HHS OIG appears to have concluded that since some
                                  compensation in excess of the legislated executive compensation limit is
                                  unallowable (for a very limited number of employees), this implies that all
                                  compensation in excess of the legislated executive compensation limit is
                                  unreasonable. FAR 31 .205-6 (p) addresses compensation costs allowability
                                  in terms of legislated limits, not reasonableness of costs, which is addressed
                                  in FAR 31 .201-3. Although costs that are unreasonable are unallowable, the
                                  converse is not true in this instance. Because a cost is made specifically
                                  unallowable by the FAR cost principles this does not imply that the cost is
                                  unreasonable.

                                  Furthermore, a compensation audit was conducted by the government in
                                  2007 (see enclosed DCAA Audit Report# 3531-2007813020001) which
                                  concluded that EDS'/HP's compensation system was adequate to
                                  consistently provide reasonable employee compensation costs to
                                  Gov13rnment contracts. The audit report specifically states that the scope of
                                  the audit "included the reasonableness of executive compensation ." Given
                                  this prior compensation audit specifically reviewed executive compensation
                                  for reasonableness and that it was conducted in 2007 (i.e. in the middle of
                                  the 2003-2009 time period that HHS OIG is currently auditing), HP believes
                                  its executive compensation pay and practices were/are reasonable.

                              •   Second, the compensation limits described in FAR 31 .205-6(p) are
                                  established and published by the Office of Federal Procurement Policy
                                  [OFPP]. Although the OFPP benchmark is established based upon a market
                                  survey of the compensation practices of other companies, the surveys
                                  conducted by OFPP do not meet the guidelines in FAR 31.205-6 (b)(2) and
                                  are therefore not valid surveys to be used for determining "reasonableness".

                                  The OFPP benchmark is an amount calculated annually by the Administrator,
                                  Office of Federal Procurement Policy. It is established by first conducting a
                                  survey of the compensation of executives in US publicly-traded corporations
                                  with sales in excess of $50M. The benchmark is then set equal to the median
                                  valuH from the survey.

                                  FAR 31 .205-6 (b)(2) indicates that in determining "reasonableness",
                                  compensation can be compared to the compensation practices of companies




                                                              2




National Heritage Insurance Company Benefit Restoration Plan Costs (A-07-14-00435)                                 13
                                "of the same size, in the same industry, in the same geographic area, and
                                engaged in similar non-government work under comparable circumstances".
                                Since the survey used to develop the OFPP Benchmark is not specific to HP
                                and its peers, but rather is a "one-size-fits-all" survey, the OFPP survey does
                                not meet, nor was it ever intended to do meet, the guidelines of FAR 31.205-
                                6 (b)(2). Thus, the use of the OFPP survey data to determine
                                "reasonableness" is not supported by the regulations.


                            •   Third, even if the OFPP survey data were appropriate for use in establishing
                                the "reasonableness" of compensation, HHS OIG has used the survey data
                                in a manner that is statistically invalid. It is not statistically valid to use a
                                median survey value to establish a threshold for "reasonableness". The HHS
                                OIG's position is that any compensation in excess of the OFPP Benchmark
                                amount is unreasonable. As noted above, the OFPP benchmark is set at the
                                median compensation value (50th percentile) of all executives included in the
                                survey. Therefore, when HHS OIG takes the position that all compensation
                                above the OFPP Benchmark is unreasonable, it is thereby asserting that
                                50% of all executives in the OFPP's survey are being paid unreasonable
                                amounts, a clearly misguided assumption. The use of a median survey value
                                as the basis for determining "reasonableness" is not supported by sound
                                statistical techniques nor by the regulations.


                                It should also be noted that in a recent case before the ASBCA (Nos. 56105,
                                56322, January 2012) involving JF Taylor, Inc., DCANDCMA took the
                                position that any compensation that exceeded the compensation survey
                                mean value by more than 10% was unreasonable. In ruling against
                                DCANDCMA, the ASBCA stated that it found DCAAIDCMA's statistical
                                methodology in the JF Taylor case to be "fatally flawed statistically and
                                themfore unreasonable." Despite the ASBCA's ruling in the JF Taylor case,
                                HHS OIG is now taking an even more statistically-flawed position that all
                                compensation above the survey median value is unreasonable.



                            Furthermore, in regard to compensation, HP pays its employees reasonable
                            compem;ation. This is supported by the following:

                            •   HP has a policy for annually reviewing the market competitiveness of its
                                Total Rewards program. As part of this review, HP defines peer groups of
                                companies, obtains and analyzes market data from competitive surveys, and
                                imph~ments appropriate pay grade and/or salary structure adjustments. In
                                addition, HP reviews the compensation of HP's Section 16 officers and
                                compares their compensation to that of HP's peer group companies. Factors
                                considered for setting executive compensation levels include market
                                competitiveness, internal equity and individual performance.




                                                             3




National Heritage Insurance Company Benefit Restoration Plan Costs (A-07-14-00435)                                  14
                             •    As stated above, HP has previously been subject to compensation audits by
                                  DCJl-A and these audits have not identified any compensation as being
                                  unreasonable. (DCAA Audit Report# 3531-2007813020001 , November 13,
                                  2007). HHS OIG is now asserting that some of HP's compensation costs that
                                  occurred as far back as 1998 (16 years ago) are unreasonable, despite the
                                  fact that these costs have previously been accepted by the government as
                                  reasonable.

                             •    During the 2003-2009 time period, HP conducted approximately 95% of its
                                  business in a highly competitive firm fixed price and commercial marketplace.
                                  HP would not be financially competitive if it paid compensation amounts that
                                  werEl unreasonably high in comparison to its peers. The FAR 31.201 -3
                                  criterion for reasonableness is "(a) A cost is reasonable if, in its nature and
                                  amount, it does not exceed that which would be incurred by a prudent person
                                  in thr~ conduct of competitive business."


                      B. HP also disagrees with the HHS OIG's assertion that BRP costs are "directly
                         associated" with compensation costs.

                         The FAR provision cited [31.201-6(a)] is incomplete and thus applied erroneously.
                         The entire provision states "(a) Costs that are expressly unallowable or mutually
                         agreed to be unallowable, including mutually agreed to be unallowable directly
                         associated costs, shall be identified and excluded from any billing, claim, or proposal
                         applicable to a Government contract. A directly associated cost is any cost that is
                         generated g!J!1J!i as a result of incurring another cost, and that would not have been
                         incurred had the other cost not been incurred. When an unallowable cost is incurred.
                         its directlv associated costs are also unallowable." (Emphasis added)


                             •    Even if BRP costs did meet the definition of directly associated , the costs
                                  with which they are directly associated have been determined by audit to be
                                  allowable. The final sentence of the FAR provision makes it clear that the
                                  directly associated costs would only be unallowable if the costs with which it
                                  is associated has been deemed to be unallowable.


                              •   Also. Benefits Restoration Plan (BRP) payments to retirees are not
                                  generated solely as a result of employee compensation. BRP benefits are
                                  accumulated each month by employees over the course of their careers.
                                  BRP credits are calculated and built up in employee's BRP accounts based
                                  upon numerous factors, which, in addition to compensation, include
                                  employee's current age, employee's age on initial hiring date, employee's
                                  age on re-hire date, employee's age on July 30, 1998, employee's years of
                                  service, employee's post-age-35 years of service, interest rate for the
                                  current year, the Social Security wage base for the current year, IRS code
                                  401 (a)(17) annual compensation limit for the current year, and employee's
                                  EDS Retirement Plan benefit.




                                                              4




National Heritage Insurance Company Benefit Restoration Plan Costs (A-07-14-00435)                                  15
                                  Since BRP payments are calculated based upon the numerous factors listed
                                  above and are not generated solely as a result of compensation , any
                                  asSElrtion that BRP costs are "directly associated" costs is not supported by
                                  the regulations.


                      C. Finally, HHS OIG also referenced FAR 3 1.205-6 (p), the senior executive
                         compensation limit. Any assertion that BRP costs are unallowable based upon FAR
                         31 .205-6 (p) is not supported by the regulations in that (1) defined benefit pension
                         plans are no t included in the definition of limited compensation, (2) the statutory
                         limitation does not apply to all employees and (3) the costs are not unallowable as
                         directly associated costs.


                          FAR 31.205-6 (p) (3) Definitions. "As used in this paragraph (p)-(i) Compensation
                          means the total amount of wages. salary, bonuses, deferred compensation (see
                          paragraph {I<) o f this subsection J, and emplover contributions to defined contribution
                          pension plans .. .(ii) Senior executive means-... (8) Effective January 2, 1999, the
                          five most highly compensated employees in management positions at each home
                          office and each segment of the contractor, whether or not the home office or segment
                          reports directly to the contractor's headquarters." (Emphasis added)


                              •   Defined benefit pension plans such as the BRP are not included in the FAR
                                  31.205-6 (p) (3) definition of limited compensation. The FAR definition
                                  includes "wages, salary, bonuses, deferred compensation (see paragraph (k)
                                  of this subsection}, and employer contributions to defined contribution
                                  pension plans." Inclusion of the term "defined benefit pension plans is
                                  inappropriate because the term does not actually appear in the text of the
                                  regulation. The specific definitional reference to "defined contribution plans"
                                  mak•3s it clear that the regulators intended to not include S!!! pension plans,
                                  but rather just defined contribution plans and excluding defined benefit plans.
                                  (See• also the discussion in 3,; bullet of Section C below). Thus, any assertion
                                  that defined benefit plan costs are to be included in the compensation that is
                                  limited by 31 .205-6(p) is contradicted by the regulations.


                              •   The statutory limitation does not apply to all employees. For the time period
                                  in question, the FAR terminology includes only "the five most highly
                                  compensated employees in management positions." The HHS OIG position
                                  is that this FAR provision applies to all employees. First, it applies only to
                                  management positions. Inclusion of other positions is not appropriate. Only
                                  recently have Congress and regulation writers drafted laws and regulations
                                  that would extend the limitation beyond the management positions. Even
                                  these drafts include provision to exempt certain professional and scientific
                                  positions for the limitation. Second, the limitation clearly applies only to the
                                  top five management positions. Thus, the HHS OIG position to apply the
                                  limitation to all employees is contradicted by the regulations.




                                                               5




National Heritage Insurance Company Benefit Restoration Plan Costs (A-07-14-00435)                                   16
                                  The costs are not unallowable as directly associated costs. Generally, a cost
                                  that is incurred due only to the incurrence of an unallowable cost is a directly
                                  associated cost-and also unallowable. Exceptions are provided for the
                                  com;ideration of materiality and certain other factors. The FAR definition of
                                  compensation subject to the limitation specifically included defined
                                  contribution pension plan costs as discussed in the first bullet of Section C
                                  abo11e. If the regulation writers thought that defined contribution pension plan
                                  costs were included in the definition of directly associated costs, there would
                                  havE) been no need to specifically include such costs in the definition. If the
                                  regulation writers intended to do so, they would have included defined benefit
                                  pen~;ion plan costs just as they included defined contribution pension plan
                                  costs. Clearly the regulation writers did not intend to treat defined benefit
                                  and contribution plans in the same manner-which would result if the term
                                  directly associated costs was applied to defined benefit pension plan costs.
                                  ThuH, the HHS OIG position that these costs are unallowable as directly
                                  associated costs is contradicted by the wording in the regulations.


               We appreciate the opportunity to review and provide comments on this draft audit report and
               look forward to working with the HHS OIG to finalize the results ofthis audit.

               We also want to extend o ur thanks to the HHS OIG audit team for their professionalism and
               open communication during the review process.

               If you have any questions about our response, please do not hesitate to contact me at (703)742-
               1261 or Mark Shreve at ('703}904-8903, or through email at mark.shreve@hp.com.


               Sincerely,




               Mr. Nickolas Kozar
               Director, US Public Sector & Compliance - USFCAL
               Hewlett-Packard Company



               Cc: Mr. Trace Woodward



                Enclosure




                                                               6




National Heritage Insurance Company Benefit Restoration Plan Costs (A-07-14-00435)                                   17
